No. 19-108
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL J.D. BRIGGS
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid,
this 28th day of August, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,996
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
August 28, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 28, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

19-0108
USA
MICHAEL J.D. BRIGGS
MAJ. JOHNATHAN LEGG
FAIRCHILD HALL
ROOM 6H-194
US AIR FORCE ACADEMY, CO 80840
JOHNATHAN.LEGG@USAFA.EDU
STEVEN I. VLADECK
727 EAST DEAN KEETON STREET
AUSTIN, TX 78705
SVLADECK@LAW.UTEXAS.EDU
TERRI ZIMMERMAN
770 S. POST OAK LANE
SUITE 620
HOUSTON, TX 77056
TERRI.ZIMMERMAN@ZLZSLAW.COM

VIA EMAIL

